OFFICE OF INSPECTOR GENERAL



Audit of the U.S. African
Development Foundation’s
Financial Statements for Fiscal
Years 2007 and 2006
AUDIT REPORT NO. 0-000-08-002-C
November 14, 2007




WASHINGTON, DC

Office of Inspector General


Office of Inspector General

November 14, 2007

MEMORANDUM

TO:                USADF President and CEO, Lloyd O. Pierson

FROM:               AIG/A, Joseph Farinella /s/

SUBJECT:            Audit of the U.S. African Development Foundation's Financial Statements for
                    Fiscal Years 2007 and 2006 (Audit Report No. 0-ADF-08-002-C)

The final report on the subject audit is enclosed. The Office of Inspector General contracted
with the independent certified public accounting firm of Leonard G. Birnbaum and Company,
LLP (LGB) to audit the financial statements of the U.S. African Development Foundation
(USADF) as of September 30, 2007 and 2006 and for the years then ended. The contract
required that the audit be performed in accordance with generally accepted government auditing
standards; generally accepted auditing standards; Office of Management and Budget Bulletin
07-04, Audit Requirements for Federal Financial Statements; and the Government
Accountability Office/President's Council on Integrity and Efficiency Financial Audit Manual.
LGB determined that:

•    the financial statements were fairly presented, in all material respects, in conformity with
     U.S. generally accepted accounting principles,

•    there were no material weaknesses or significant deficiencies in internal control over
     financial reporting (including safeguarding assets) and compliance with laws and
     regulations,

•    there were no instances in which USADF’s financial management systems did not
     substantially comply with the requirements of the Federal Financial Management
     Improvement Act of 1996 (FFMIA) Section 803(a), and

•    there were no instances of reportable noncompliance with laws and regulations tested.

In connection with the audit contract, we reviewed LGB’s report and related documentation.
Our review, as differentiated from an audit in accordance with U.S. generally accepted
government auditing standards, was not intended to enable us to express, and we do not
express, an opinion on USADF’s financial statements. We also express no conclusions on the
effectiveness of USADF’s internal control, USADF’s substantial compliance with FFMIA Section
803(a), or USADF’s compliance with other laws and regulations. LGB is responsible for the
attached auditor's report dated November 7, 2007 and the conclusions expressed in it.
However, our review disclosed no instances where LGB did not comply, in all material respects,
with generally accepted government auditing standards.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
http://www.usaid.gov
The report does not contain recommendations. USADF comments to the auditor’s report are
included in Appendix I.

The Office of Inspector General appreciates the cooperation and courtesies extended to our
staff and to the staff of LGB during the audit. If you have questions concerning this report,
please contact Andrew Katsaros at (202) 712-4902.
CONTENTS

Message from the President .......................................................................................... 1 


Management’s Discussion and Analysis...................................................................... 3 


Message from the CFO ................................................................................................. 27 


Independent Auditor’s Reports ................................................................................... 28 


Financial Statements 


     Balance Sheets ......................................................................................................... 33 


     Statements of Net Cost ............................................................................................. 34 


     Statements of Changes in Net Position ................................................................... 35 


     Statements of Budgetary Resources ........................................................................ 36 


     Notes to the Financial Statements ............................................................................ 37 


Appendix I – Management Comments ........................................................................ 43 

   AFRICAN DEVELOPMENT FOUNDATION

PERFORMANCE AND ACCOUNTABILITY REPORT

             FISCAL YEAR 2007 





    Leonard G. Birnbaum and Company, LLP 

             6285 Franconia Road 

            Alexandria, VA 22310             

                (703) 922-7622               

November 9, 2007



                         AFRICAN DEVELOPMENT FOUNDATION 

                            MESSAGE FROM THE PRESIDENT 


It gives me great pleasure to report that FY 2007 has been a very successful year for the African
Development Foundation (ADF).

ADF fosters hope, growth, and goodwill in Africa. Its programs are focused on creating
opportunities for Africa’s poor, especially improving the lives of those at the lower end of the
spectrum.

ADF’s major country programs align with those African countries that have large marginalized
communities:

   ¾	 In Nigeria, Ghana, Zambia, Tanzania and Uganda, ADF concentrates its investment to
      develop small and medium-sized, African-owned enterprises and to help small farmers
      diversify production into high value cash crops for the global market.

   ¾	 In Liberia and Rwanda, ADF’s programs provide income-generating activities for
      communities recovering from conflict, thereby promoting peace and stability.

   ¾	 In Guinea, Northern Nigeria, Mali, Niger, and Senegal, ADF’s programs foster goodwill
      between the American people and predominately Muslim countries; moreover, these
      programs help alleviate poverty, which may contribute to the spread of radical Islamic
      fundamentalism.

ADF has proven its effectiveness and demonstrated its uniqueness and impact. We had some
noteworthy accomplishments during this past year.

   ¾	 Keeping up our track record of the past several years running, the Foundation continued to
      demonstrate how its funding directly improves people’s lives:

       •	 In FY 2007, ADF directly supported more than 250 enterprises.




                                                1
       •	 From the growth of these enterprises, more than 46,500 jobs were created or improved;
          half of those benefiting from ADF’s support were women.

       •	 These ADF-assisted businesses had $82.3 million in sales revenue.

       •	 During the past three years, small agricultural producers had $66.3 million total in
          export earnings, demonstrating their increased competitiveness in global markets.

   ¾	 As an indication of their strength and sustainability, almost 70 percent of ADF’s clients
      were still in business three years after assistance ended.

   ¾	 American companies are linking with ADF for African-made products. We are in active
      discussions with Macy’s, General Mills and Cargill to link with African enterprises that will
      be able to produce to international standards and sell, at a fair price, to those companies.

ADF has produced significant results with relatively small appropriations. The Foundation is being
recognized – within the development community, in the Administration, and in Congress – as one
of the most distinctive and effective foreign assistance programs we have. Moreover, it serves as a
powerful example of the compassion and goodwill of the American people.

I am pleased to submit the FY 2007 Performance and Accountability Report for the African
Development Foundation. The financial statements and the performance results data are complete,
reliable and prepared in accordance with the Office of Management and Budget (OMB)
requirements and in conformity with generally accepted accounting principles. ADF has
appropriate management controls in place to ensure that all internal controls are operating in
accordance with applicable policies and procedures and are effective in meeting the requirements
imposed by the Federal Managers’ Financial Integrity Act (FMFIA) and the Federal Financial
Management Improvement Act (FFMIA).

Signed:

/s/
Lloyd O. Pierson
President




                                                 2
                        AFRICAN DEVELOPMENT FOUNDATION 

                      MANAGEMENT'S DISCUSSION AND ANALYSIS 


About the African Development Foundation

Congress established the African Development Foundation (ADF) in 1980 as a U.S. Government
corporation dedicated to promoting grassroots development in Africa. ADF provides grants to
private enterprises and other nongovernmental organizations in Africa. The usual maximum grant
size is $250,000, but ADF can fund larger projects as rare exceptions, with the approval of the
Board of Trustees and notification of Congress. The usual maximum grant duration is five years,
but may extend to seven years in some circumstances. ADF:

   	 finances sustainable poverty alleviating initiatives that are conceived, designed, and
      implemented by Africans and aimed at enlarging opportunities for community
      development;

   	 expands the participation of Africa’s poor in the development of their countries; and

   	 builds sustainable African institutions that foster development at the grassroots level.

The African Development Foundation’s mission is to respond to the needs of small African entities
and help communities take control of their own development – from the bottom-up. Its assistance
enables informal enterprises to move into the formal economy, small businesses to grow into robust
enterprises that can produce high quality products as substitutes for expensive imports and for
regional and global markets, and poor farmers to produce nontraditional high-value cash crops, and
capture additional revenue through processing prior to export.

The Foundation takes a unique approach to development assistance:
   ¾	 ADF’s program allows Africans to drive their own development. ADF develops the
      capacity of its local partner institutions to work with prospective clients in assessing clients’
      operations, identifying solutions, and achieving intended results.

   ¾	 ADF initiated the concept of the “Reinvestment Contribution,” or RIC, through which
      grantees commit to reinvesting a portion of their profits to support community development
      projects.

   ¾	 ADF provides funds directly to the intended beneficiary, rather than through government
      agencies, nongovernmental organizations, and the like. This means that 100 percent of the
      funding goes directly to the project participants.

As the international community rallies to help reduce poverty and promote broad-scale economic
growth in Africa, it is recognized that all too little of external funding is actually getting to the
grassroots. The African Development Foundation can demonstrate tangible, measurable outcomes,
which are directly attributable to its support. These outcomes have an economic impact that far
surpasses the original value of the grant.




                                                   3
The Office of Management and Budget rated the agency fully “effective,” after completing the
comprehensive Program Assessment Reporting Tool (PART) in FY 2005. This is its highest rating
and is a significant accomplishment, given that only 11 percent of federal agencies, and a mere 5
percent of grant-making programs, receive it.

Analysis of Financial Statements

ADF is pleased to report that in FY 2007 the Foundation continued to receive an unqualified opinion on
all financial statements from its independent auditors, Leonard G. Birnbaum and Company, and the
USAID Office of the Inspector General. Since FY 2001, ADF has received an unqualified opinion on
the Balance Sheet, the Statement of Net Costs, the Statement of Net Position, the Statement of
Budgetary Resources, and the Statement of Financing.

Fund Balance with Treasury

The fund balance with Treasury remained constant from FY 2006 to FY 2007. This is due primarily
to the fact that ADF’s appropriations remained constant, as described below.

Net Cost of Operations

Costs associated with program activities increased, from $12.9 million in FY 2006 to $16.3 million
in FY 2007. This is due primarily to increased expenses associated with a growing grant portfolio.
As the number of grants supported grows, expenses will increase gradually over the average five-
year period of the typical ADF grant. In addition, there were increased field costs associated with
the office in Accra, Ghana.

Operating expenses increased from $9 million in FY 2006 to $10.9 million in FY 2007. This is due
to a combination of factors including higher payroll costs due to cost of living allowance and with-in
grade increases, normal rent increases, additional technology expenditures, and increased costs
associated with the country representative offices and the office in Accra, Ghana.

Close to one-third of ADF’s operating expenses are related to payroll. The next most significant
category of expense, also at approximately one-third, relates to the on-the-ground presence ADF
maintains in sixteen African countries. Having ADF country representatives in close contact with
our grantees is a hallmark of the ADF program. The remaining one-third relates to rent, travel,
supplies, publications, training, contractual services, and information technology.

Appropriations

ADF’s appropriations are available for two years. Due to the year-long continuing resolution CR in
FY 2007, ADF’s appropriations remained at $23 million in FY 2007/2008, straightlined from the
prior year. In addition to current year appropriations, ADF carried forward approximately $4.5
million in unused FY 2006/2007 appropriations and donated funds. These carried forward resources
enabled ADF to fund $13.8 million in grant obligations, a large increase over the prior year’s
programming levels of $8 million. As a result, however, ADF has carried forward only a small
amount of funding from the FY 2007/2008 to the current year. If the FY 2008 CR lasts for the


                                                  4
entire year, ADF will need to make major cuts in both its programming and operating obligations to
live within such limited resources.

Improper Payments

The African Development Foundation has no improper payments to report for FY 2007.

Challenges to ADF Operations

ADF’s operating environment presents many challenges. Ensuring that grantees receive timely
disbursements is one such challenge. All grantees are required to establish separate bank accounts
for their ADF grants. Once a disbursement request is approved, the funds are electronically
transferred, in local currency, directly to the grantee’s bank account. Because a number of
intermediary banks may be involved in the process, the time between the release of funds from the
U.S. and the posting of funds to the grantee’s account can be inordinately long.

In FY 2007, ADF began using the International Treasury System (ITS), a part of the US Treasury,
for making local currency disbursements to grantees. This new method of disbursement provided
immediate improvements in both cost and efficiency. Because the Treasury processes a high
volume of foreign currency transactions, ADF benefited from a much more favorable exchange rate
on its local currency disbursements. In the age of a weakening dollar, ADF experienced significant
savings over the rates obtained through private sector currency providers. In addition, ITS added a
level of efficiency that made the disbursement process faster and more secure.

To help our grantees receive their funds as quickly and efficiently as possible, we document the
flow of funds with written confirmations as the funds move through various financial institutions
until they reach the grantee’s bank. Then, on those occasions when the posting of the grantee’s
funds is delayed, he/she can go directly to the bank, armed with the thorough documentation of the
transaction that we provide, and request that the funds be posted immediately. With this
monitoring system, our grantees receive timely payments virtually all the time.

ADF’s grantees are located in over 15 countries, often in remote locations. Effective
communication can be difficult, especially in countries where telecommunications systems are not
reliable. While ADF has an extensive field network working directly with grantees and ensuring
that grantees provide quarterly financial and performance reports, communicating this information
back to ADF Washington can be challenging. During FY 2007, ADF began implementing
updated, web-based grant information system. This will allow local staff to input project-related
directly into the database, which can then be used by headquarters staff to measure project
performance more efficiently.




                                                 5
ADF Quality Assurance, Internal Controls and Legal Compliance

During 2007, ADF made additional improvements in internal controls. Building on the
improvements made to the grant and cooperative agreement audit program in FY 2005, ADF
implemented further refinements this year. In FY 2006, ADF had restructured its auditor position
and filled it with a highly qualified certified public accountant with a strong government auditing
background. In FY 2007, we have begun to see the benefits of dedicating a full-time person to
internal control issues. The auditor manages the audit program for project grantees, determines which
projects will be audited, defines the scope of work required for each audit, evaluates the performance of
contracted auditing firms, and authorizes payment to contracted auditing firms. Based on the ADF
auditor’s thorough review of grantee audit results, the agency’s Audit Committee is informed of
any material issues raised by the audit firms. These issues are then tracked by the portfolio
managers responsible for the grantees in question to ensure timely follow up.

As a small agency, managers and staff work closely on all aspects of program management, and
this ensures a high level of review over financial transactions. In FY 2007, the auditor continued
the major initiative begun in FY 2006 to assess risk, test controls, evaluate their effectiveness, and
recommend improvements to ADF’s internal control systems. These actions will not only ensure
that ADF has a strong internal control system in place but will also allow for potential procedural
improvements that will lead to a more efficient use of ADF’s limited resources.

ADF’s grants database has a full time Grants Database and Operations Manager, who is the
primary person responsible for the continued integrity and security of all grantee administrative and
financial data reported. The financial information contained in the database is reconciled monthly with
the financial information contained in the agency’s core financial system, Oracle Federal Financials.
During FY 2007, ADF conducted on-the-ground training in several West African countries on the use
of the web-based system. Additional training is planned for FY 2008. Within the next two years, ADF
expects to complete the implementation of the system in each African country where we have a
presence. This major accomplishment will allow ADF program and senior managers to have access to
real time information.

A key to the success of ADF’s methodology is the hands-on approach we take with every grantee. As
soon as grantees receive their first disbursement, the Regional Program Coordinators and Portfolio
Analysts begin monitoring the grantees that have been assigned to them. They take an active role in
monitoring budget execution, approving disbursements, approving budget shifts, reviewing expenditure
reports, making adjustments to the timing of grantee activity, and even recommending suspension and
termination, if the need should arise.

In FY 2005, ADF eliminated all long-standing material weaknesses related to its core financial
system. ADF’s systems are now fully compliant with all OMB and Treasury requirements. ADF is
fully compliant with the Federal Managers Financial Integrity Act and the Federal Financial
Management Improvement Act.




                                                   6
Identification of Key Factors That Could Affect Achievement of General Goals and Objectives

ADF’s programs are designed to assist “the poorest of the poor in Africa.” Our mandate is to
build a broad base for sustainable economic development in Africa, thereby enabling the people of
Africa to break the vicious cycle of poverty. There are a number of factors that could affect
program goals and objectives. These factors include poor communication systems, poor
infrastructure, unsuitable health conditions, poverty, the threat of civil strife, and political
instability, just to name a few. Despite these challenges, ADF projects have proven to be highly
successful.


Limitations of Financial Statements

ADF's principal financial statements have been prepared to report the financial position and results
of operations of the entity, pursuant to the requirements of 31 U.S.C. 3515 (b). While the
statements have been prepared from books and records in accordance with generally accepted
accounting principles (GAAP) for federal entities and the formats prescribed by the Office of
Management and Budget, the statements are in addition to the financial reports used to monitor and
control budgetary resources which are prepared from the same books and records.

The statements should be read with the realization that they are for a component of the U.S.
Government, a sovereign entity.




                                                 7
                          AFRICAN DEVELOPMENT FOUNDATION 

                          ANNUAL PERFORMANCE INFORMATION 


ADF has clearly articulated purpose, vision and mission statements:

 Purpose: Fostering hope, growth and goodwill in Africa.
 Vision: To stimulate grassroots development and empower the poor in Africa by growing
          profitable businesses and sustainable social enterprises.
 Mission: To be a leader in promoting high impact activities and innovative approaches to improve
          the lives of Africans.

ADF’s strategic goals and objectives are designed to ensure that there is a system in place to track
and measure agency performance against the purpose, mission, and vision.

ADF’s Program and Strategic Goals and Objectives

Goal I: Invest in small businesses and social enterprises that create jobs, generate income, and
improve the lives of the poor.

Despite recent impressive growth and development, sub-Saharan Africa still lags behind all other
regions of the world. Every significant socio-economic indicator (GNP per capita, life expectancy,
infant and child mortality, adult literacy, primary and secondary school enrollment, total fertility)
shows that the welfare of the people of Africa is still significantly worse than every other region.

ADF funds projects that directly and significantly improve the livelihoods of low-income people.
The Foundation stresses innovation and rigor in its projects to create jobs and increase incomes for
the poor. ADF seeks to stimulate growth on a large scale by demonstrating successful models that
can be replicated by African governments, large bilateral and multilateral donors, and private
voluntary organizations.

Strategic Objective 1: Grow African-owned small and medium-sized enterprises and increase their
participation in local and global markets

Building on 25 years of experience in grassroots development, the Foundation has formulated a
high impact strategy to help African-owned enterprises grow, develop new products, and take
advantage of opportunities in both the local and global markets.

ADF has programs in Ghana, Tanzania, Uganda and Zambia, Cape Verde, Mali, Nigeria and
Rwanda, focused on assisting small-scale enterprises and farmers cooperatives to produce, process
and export about 40 products, including clothing and fabric, silk, dried fruit and juices, vegetables,
processed grains and legumes, meats, hides and leather products, butter, fish products (Nile perch
and rock lobster), various spices (paprika, chili peppers, vanilla), honey, sugar, tea, coffee, sea salt,
ceramics, and solar-powered hearing aids. Many of these products are certified organic and,
consequently, fetch a premium price for the producer.

Strategic Objective 2: Expand small farmer production of high value crops, value-added



                                                    8
processing of agricultural goods, and access to local and global markets

Poverty in Africa is most pervasive in rural areas. With as many as three quarters of the
populations in many African countries depending on agriculture for their livelihood, the sector is
truly the backbone of most economies. Enabling small farmers to move from subsistence farmer to
production of high value cash crops has tremendous impact on improving the lives of Africa’s
poor, the rural economy, and even the environment. It provides rural families with sorely needed
reliable employment and better incomes. This enables them to buy fertilizer to increase
productivity of staple crops, purchase food they cannot grow, pay school fees and medical costs,
and improve clothing and shelter. Moreover, the agriculture sector has extensive forward and
backward linkages within African economies, so it can provide a significant stimulus to growth and
stability, in rural and urban areas, in formal and informal enterprises.

ADF is stimulating economic growth in rural economies by:

   ¾	 Identifying non-traditional high-value crops that have potential on regional and
      international markets

   ¾	 Supporting their production by small-scale farmers through provision of training, technical
      assistance and seasonal agricultural credit;

   ¾	 Establishing or expanding small-scale agro-processors, through operating capital and
      equipment procurement, and providing them technical and managerial assistance to ensure
      they meet market standards; and

   ¾	 Creating new export marketing linkages for regional or international trade

Strategic Objective 3: Develop sustainable social enterprises that meet critical social and
economic needs of marginalized peoples

No other continent is more afflicted by natural disasters, disease and civil conflict than Africa.
Many countries have recently emerged from prolonged civil war or ethnic conflict that have
wrought devastation to families and destroyed the local economies. Those situations – including
northern Uganda, Rwanda, Burundi, the Democratic Republic of the Congo (DRC), and Liberia –
will require innovative approaches to stimulating community action and unleashing
entrepreneurship.

Examples of social enterprise support that ADF provides under this objective include the
following:

   ¾	 Education and mentoring for “night commuters”, the children in northern Uganda who were
      displaced and traumatized by civil war and abductions;
   ¾	 Service enterprises and basic rural infrastructure, such as health clinics, schools, and wells,
      utilizing contributions from a strategic partnership with Global Alumina in Guinea;
   ¾	 Income-generating activities for families devastated by AIDS in Swaziland;
   ¾	 Youth job training and community-based care for orphans and vulnerable children in
      Zambia, under an innovative public-private sector partnership.



                                                 9
In addition, much of ADF’s programming in post-conflict situations – Liberia, Burundi, and DRC –
will involve funding small enterprises and community-based organizations to generate income and
deliver essential services to affected and marginalized communities and peoples.

Goal II: Expand local institutional and financial capacities that support businesses and social
enterprise growth

Conventional ways of stimulating economic development through huge infrastructure, large-scale
industries, or expensive international consulting firms have yielded too little benefit for too few
people at high financial and environmental costs. Investments administered by government
agencies and parastatal companies are often inefficient and ineffective. By contrast, ADF works
directly at the grassroots level with private enterprises, producer groups, and community
organizations that assist them.

ADF has extensive experience in participatory, grassroots development strategies that are
appropriate for the types of clients most under-served by conventional foreign aid programs. In
addition to the direct impact of ADF-funded investments on investment beneficiaries, ADF
strengthens African institutional and financial capacities to support and sustain grassroots
development. It also seeks to multiply benefits by influencing how government agencies, bilateral
and multilateral donors, development banks, and non-governmental organizations foster economic
development.

Strategic Objective 1: Create local development trusts and generate renewable pools of local
capital to fund small business growth and community initiatives.

The Foundation has pioneered an innovative “pay it forward” mechanism called the Reinvestment
Commitment (RIC), which will vary in size and nature depending on the kind of enterprise. This
mechanism produces a multiplier effect for ADF’s initial investment by creating renewable pools of
local capital and by supporting various community-level needs.

The Foundation is providing intellectual leadership through this innovation. For example, the
International Finance Corporation of the World Bank invited ADF to share its approach and
experience to help it launch a new initiative focused on promoting “social enterprises.” ADF, its
Partner organization in Uganda, and the Rockefeller Foundation are undertaking a joint investment
program funded, in part, from resources generated under ADF’s program trusts.

Strategic Objective 2: Strengthen the capacity of African business and community leaders to foster
entrepreneurship and social philanthropy and to model transparency and accountability

ADF’s experience in grassroots development showed that there was a great need for local, African
institutions and professionals able to provide high quality, reasonably priced technical assistance
and training to enterprises and community groups. Consequently, during the past four years, ADF
has pursued a unique business model to provide support to its applicants and clients. In most
countries where it operates, the Foundation is investing in developing the capacity of indigenous
non-governmental organizations, which serve as its “Partner.” They help applicants that have
passed the initial screening done by ADF’s Country Representative to develop their ideas into


                                                10
business plans with rigorous financial analyses. After ADF awards a grant, the Partner
organizations train the clients in financial management and participatory monitoring, visit them
regularly to monitor progress and help rectify any implementation problems, and provide assistance
in procurement and in preparation of quarterly financial and performance reports.

ADF transfers U.S. development expertise to its African Partner organizations through training and
technical assistance to build their capacity. It also monitors the quality of their services and helps
them plan and develop systems for attracting future funding from other sources. ADF’s
cooperative agreements with Partner organizations were awarded based on an open, competitive
process; they are performance-based and renewable annually for up to five years.

Strategic Objective 3: Establish strategic partnerships with African governments and institutions,
development groups, and the private sector, to fund and replicate ADF programs and approaches

ADF is building innovative partnerships with African governments and international corporations
that can serve as vital sources of capital and technology to expand the impact of the Foundation’s
program.

The following countries have made contributions to ADF that have leveraged US taxpayer dollars:

   ¾   Botswana
   ¾   Swaziland
   ¾   Cape Verde
   ¾   Mali
   ¾   Senegal
   ¾   Nigeria
   ¾   Benin
   ¾   Uganda

Strategic Objective 4: Promote and disseminate international and ADF best practices, lessons
learned, and successful models for African-driven development

African governments, other donors, and PVOs/NGOs are very interested in adopting new ways of
fostering broad-based and sustainable economic development when the cost-effectiveness of these
approaches has been demonstrated.

With the recent restructuring of headquarters, a new thrust for the Foundation is knowledge
dissemination. Having funded more than 1,700 investments during the past twenty years, the
Foundation has a rich set of lessons learned and has developed some best practices. ADF is
disseminating its innovative development strategies, such as its grassroots trade and investment
program and the RIC mechanism.

In FY 2008, ADF will undertake program evaluation and will strengthen its documentation and
dissemination activities to encourage the replication of successful models and investments. ADF
will share the lessons learned from impact evaluations, country program assessments, and cross-
country sectoral studies with other government agencies and development organizations. The



                                                  11
Foundation will also participate in major international, regional, and national fora and conduct
dialogues with development partners.

Performance Highlights

FY 2007 Program Funding

New program funding obligations totaled $17.2 million in FY 2007. New obligations for Partner
Organization cooperative agreements and technical assistance providers (CAs/TAPs) amounted to
$1.4 million. The CAs/TAPs support development of new investment plans and studies as well as
ongoing technical and managerial assistance for existing investments. New enterprise development
and expansion investments totaled $15.8 million.

Performance Tracking at ADF

ADF has collected annual performance information on its portfolio of investments since FY 1999
in its Assessment of Program Impact (API). Due to changes in program priorities and decisions to
focus on the most meaningful indicators that can be measured reliably, many of the indicators used
in the annual Assessment of Program Impact (API) have been modified over this period. For
example, ADF has reduced or eliminated some indicators for microfinance projects and AIDS
prevention and mitigation to reflect changes in program focus.

In FY 2005, for the Program Assessment Rating Tool (PART) process, ADF and the US Office of
Management and Budget (OMB) agreed on 12 performance indicators with annual targets for a 5
year period. ADF worked closely with OMB to develop this core set of indicators that best reflect
ADF’s performance against its strategic objectives. Some of the PART indicators focus on the
performance of the grantees’ projects while others relate to the internal operations of the
Foundation. The PART indicators fall into 4 categories: 1) business growth, expansion, and
sustainability; 2) resource mobilization, 3) information dissemination; and 4) operational
efficiency.

The PART indicators are reported annually in addition to the API indicators. Some PART
indicators are derived from API indicators. Although ADF will continue collecting the API
indicators because the information is useful in assessing the status of individual projects, country
programs, and the overall portfolio, the Foundation’s current performance targets are only based on
the PART indicators.




FY 2007 Performance Targets and Preliminary Results



                                                 12
                ADF’s PART Performance Indicators and Targets for FY 2007

Indicator                              Indicator         Type of     FY 07    FY 07
                                         Name            Measure     Target   Actual
BUSINESS GROWTH AND
EXPANSION
Cumulative increase in sales of        Revenue            Annual      $31        Not
enterprise development projects        growth                                  available
over their extrapolated baseline
level during the project period
and the 3 yrs following the grant
expiration date.
For every dollar disbursed to         Investment          Annual      2.2        Not
enterprise development projects        multiplier                              available
that were active or have closed
within past 3 yrs, the cumulative
increase in their gross revenues
(sales) over the extrapolated
baseline level, during project
period and for 3 yrs following the
grant expiration date.
% of active enterprise                Profitability      Long-term    70%        Not
development projects that have                                                 available
achieved positive net income –
before income taxes, depreciation
and CRG contributions – from
end of the 3rd yr of grant until
expiration
% of active enterprise                   CRG             Long-term    70%        Not
development projects current in       contribution                             available
meeting their CRG pledges by 3rd
year of ADF grant
% of completed enterprise               Sustain-         Long-term    65%        Not
development projects or social           ability                               available
development projects that are still
operating during the 3 yrs
following expiration of the ADF
grant




                                                    13
Indicator                              Indicator         Type of     FY 07    FY 07
                                         Name            Measure     Target   Actual
RESOURCE MOBILIZATION
Funds received from strategic          Strategic          Annual      40%        25%
partnerships during the year as a     partnership
percent of new ADF obligations        contribution
for development
Cumulative non-ADF loans,             Follow-on          Long-term   TBD         Not
grants, or equity investments,        financing                                available
received by active and closed
projects from the ADF grant start
date thru 3 yrs after expiration of
ADF grant (in millions US$)
Annual non-CRG, private sector        Enterprise         Long-term    $2.0       Not
investments or contributions for      trust funds                              available
in-country enterprise trust funds
(in millions $US)
OPERATIONAL
EFFICIENCY
ADF’s non-program costs as a           Overhead           Annual      25%        36%
percentage of total USG
appropriations and non-USG
funding contributions received
during the year
Median time required between           Disburse           Annual       26        Not
ADF Country Rep’s receipt of a            ment                                 available
grant disbursement request and         efficiency
the arrival of the funds in the
grantee’s bank account
INFORMATION
DISSEMINATION
# of voluntary subscriptions to         E-news            Annual     2600        Not
ADF e-newsletter                      subscribers                              available
Average number of page views of       Website use         Annual     69,000      Not
ADF’s website, per month                                                       available




                                                    14
The table, above, shows that only two of the PART indicators have FY 2007 results. Because of
the time-consuming nature of field data collection and analysis in remote, rural areas of Africa, the
investment results for a given fiscal year cannot be available in time for that year’s PAR.
Consequently, the FY 2007 PAR focuses performance data for FY 2006. Some of the
organizational performance indicators that are not derived from field data pertain to the USG fiscal
year ending September 30. Due to the time lag time in the client’s reporting schedule and field
data collection, the performance indicators for ADF’s investments focus on the 12-month period
ending June 30 of each year (“the API/PART reporting year”).

The two indicators for which there are results are based on information available at Headquarters.
The funds received from Strategic Partners, as a percentage of program obligations, lagged
significantly behind the target. This is due to two factors: First, because strategic partnership
funds are in the form of donations, receipt of funds depends on the ability of the host country
governments to make the donation. In certain instances, changes in host country government
personnel impacted the timeliness of collection, as the new government required time to focus on
the purpose and importance of these funds to ADF’s programming. Second, ADF’s total
programming was nearly twice as high as last year’s level. A number of the projects funded this
year were in countries for which there is no strategic partnership, thus helping to lower the overall
percentage.

The overhead measure also missed the target in FY 2007. This was not because ADF’s overhead
spending exceeded basic cost of living increases. On the contrary, this was because achieving the
target depends to a great extent on the total amount of resources available. In FY 2007, ADF’s
appropriation of $23 million was lower than the request in the President’s Budget of $26 million.
In addition, as noted above, collections from Strategic Partners were below target. Those two
events combined to raise the overhead percentage.

Annual Performance Highlights – FY 2006

Most API and PART indicators are limited to the active investments. Much of the information on
active investments is collected quarterly through client progress reports and financial statements.

To address sustainability and long-term impact, some of the PART indicators are also concerned
with completed investments. Since ADF’s clients are not required to submit quarterly progress
reports after the investment completion date, a special annual data collection effort is needed to
gather new information on the completed investments. To reduce the burden on field staff and the
costs of data collection, which can be relatively high if travel to scattered or remote areas of
African countries is needed, the data is collected for recently completed investments – those that
expired within the past three years. Also, a much more limited set of information is expected for
the completed investments.

Most of ADF’s new program obligations in one year do not lead to grant disbursements until the
following year. Disbursements may continue for five or more years, but a large share of the total
disbursements are typically released by the end of the third year of the project. Initial project
impacts tend to follow disbursements with a lag time of six to twelve months. The impact tends to
grow faster in subsequent years, reaching a maximum in the last year of the project. Consequently,


                                                 15
the performance results reported in the reporting year are mainly an outgrowth of ADF
disbursements over the previous five years, rather than the current year.

API Indicators

Trends in the performance results for the API indicators from FY 2002 through FY 2006 are shown
below. There are no targets for the API indicators for FY 2006 because ADF’s targets were
switched from the API indicators to the PART indicators in FY 2005.

Five-Year Trends for the API Indicators (cumulative numbers for active projects)

Performance             FY 2002               FY 2003                 FY 2004                 FY 2005                  FY 2006
Indicator
Enterprises             86,180                80,946                  95,176                  108,341                  Indicator
Assisted                                                                                                               discontinued
Owners and full         96,854                112,802                 115,827                 114,597                  46,553
time workers in
assisted enterprises1
Women as a percent      58.1%                 48.2%                   75.6%                   At least 64.9%           46.3%
of owners and
workers in assisted
enterprises2
Enterprises with        65,319                67,893                  84,925                  Indicator                Indicator
loans                                                                                         discontinued             discontinued
Cumulative value of     $11.243 million       $15.127                 $17.250                 $22.790                  $17.136
loans disbursed                               million                                         million                  million
                                                                      million
Proportion of loans     60.6%                 61.8%                   73.2%                   Indicator                Indicator
for women3                                                                                    discontinued             discontinued
Cumulative sales        $53.440                                                               $54.836 million
                                              $28.830                 $43.485 million                                  $83.078 million
revenues from active    million               million
enterprise projects4

Net income of           $14.611               $6.369                  $8.807                  $4.598                   $3.110
grantees during the     million               million                 million                 million                  million
year4

1
  Unless actual data were available from grantee records or surveys to support higher numbers, the most conservative assumption
was adopted -- that there was one owner/worker per enterprise assisted. The actual number for many projects is likely to be
substantially higher than the reported number.
2
  In the absence of information on the gender of the owners and workers, the proportion of women beneficiaries was assumed to be
zero. The actual proportion of women beneficiaries is likely to be substantially higher.
3
  This indicator was modified from the proportion of the number of loans that went to women to women’s proportion of the total
value of loans, which is a better measure of gender equity.
4
  For FY 2002 through FY 2004, gross revenues and net income of grantees included the income received by microfinance
institutions. In FY 2005, ADF decided to stop including the income of microfinance institutions in gross revenues and net income
to focus only on enterprise revenues. If the definitions from previous years had been retained, the gross revenues and net income in
FY 2005 would have been higher than reported here.




                                                                 16
Five-Year Trends for the API Indicators (continued).

Performance           FY 2002               FY 2003                   FY 2004              FY 2005                  FY 2006
Indicator
Export products       19                    Indicator                 Indicator            Indicator                Indicator
promoted1                                   discontinued              discontinued         discontinued             discontinued
Cumulative export     $7.594                $12.027                   $21.530              $33.801                  $11.046 million
sales revenues        million               million                   million              million
from active
enterprise projects
People receiving      274,041               282,089                   320,509              Indicator                Indicator
AIDS prevention                                                                            discontinued             discontinued
training
Women as a            66.8%                 64.9%                     66.7%                Indicator                Indicator
percent of people                                                                          discontinued             discontinued
receiving AIDS
prevention
training2
Partner               13                    13                        13                   13                       15
organizations
assisted
Host governments      4                     1                         6                    6                        5
or donors
providing funding
for strategic
partnerships
Funds from            $1.104                $0.455                    $2.704               $3.541                   $2.567
strategic             million               million                   million              million                  million
partnerships3

1
  This indicator was discontinued as a quantitative performance measure since a larger number is not necessarily better than a more
focused program and there were inconsistencies in whether grantees lumped similar products together or split them into more
specific categories.
2
  To produce a conservative estimate of gender equity, it was assumed that all of the beneficiaries were men if no gender-
disaggregated data were available. The actual proportion of women among these beneficiaries is likely to be substantially higher
than reported.
3
  In FY 2005, the indicator was changed from funds leveraged by strategic partnerships (which may not be received until the
following year) to funds received from strategic partnerships during the year.


PART Indicators

Only 11 of the PART indicators were relevant in FY06. The remaining indicator, Enterprise Trust
Funds pertains to an initiative that ADF did not plan to begin until a later year. Because the PART
indicators were not established until FY 2005, PART data cannot be provided for earlier years.




                                                                 17
PART Indicator Trends and Achievements Versus Targets

PART Indicators          FY 2005          FY 2006            FY 2006         Percent of Target
                         Reporting Year   Target             Actual          Achieved
Revenue growth of            $28. million        $26 million     $45 million             172%
active and
completed MSE
and T&I projects
w/baseline data
Investment                              1.68                     2.00                 2.33                 117%
multiplier of active
and completed
MSE and T&I
projects w/baseline
data
Profitability of                        38%                     70%                   44%                    63%
active MSE and
T&I projects
Community                               13%                     50%                   39%                    77%
reinvestment
Sustainability of                       59%                      NA                   69%                     NA
completed projects
E-newsletter                           1,640                    2000                 2426                  121%
subscribers
Website usage                       148,963                   69,000               19,102                    28%
Partnership                            31%                      35%                  32%                     91%
contributions as a
percent of total
funding
Follow-on                      $9.5 million               No target          $30 million                      NA
financing
Overhead rate1                         31%                       25%                 32%                    78%
Disbursement                        25 days                   30 days              7 days                  429%
efficiency1
1
 Lower numbers represent better performance under these two indicators, while higher numbers are best for the other
indicators.




                                                         18
Summary of Key Performance Indicators By Program Goal

The API and PART indicators cut across ADF’s goals and objectives. The following figures show
the trends in key indicators for ADF’s three program goals between FY 2004 and FY 2006 and the
Foundation’s targets for FY 2006.


Goal 1: Invest in businesses and social enterprises that create jobs, generate incomes, and improve
the lives of the poor.


    $50,000,000

    $40,000,000
    $30,000,000                                                                          Revenue Grow th
    $20,000,000                                                                          Target

    $10,000,000

            $0
                   FY04        FY05        FY06


                                       Cumulative Revenue Growth1
1
 FY 2005 and FY 2006 include active enterprise expansion investments and those completed within the prior 3 years;
FY 2004 only includes the active investments.


    2.50

    2.00

    1.50                                                                              Investment Multiplier
    1.00                                                                              Target

    0.50

    0.00
                  FY04                     FY05                    FY06


                                           Investment Multiplier1
1
 FY 2005 and FY 2006 include active enterprise expansion investments and those completed within the prior 3 years




                                                         19
     80%
     70%
     60%
     50%
                                                                                                      Profitability
     40%
                                                                                                      Target
     30%
     20%
     10%
      0%
                    FY04             FY05          FY06




               Percent of Active Enterprise Expansion Investments That Were Profitable1
1
 Based on net income before income taxes and depreciation




     140,000
     120,000
     100,000
      80,000
                                                                                   Ow ners/Full-Time Workers
      60,000
      40,000
      20,000
           0
                     FY04          FY05     FY06




                              Owners and Regular, Full-Time Workers Benefiting1
1
    The high levels in FY 04 and 05 are the result of microcredit funding that was largely discontinued in FY 06.


     $35,000,000
     $30,000,000
     $25,000,000
     $20,000,000                                                              Cumulative follow -on financing
     $15,000,000                                                              received

     $10,000,000
      $5,000,000
               $0
                            FY04            FY05              FY06




                             Cumulative Follow-on Financing (active + completed)




                                                             20
Goal 2. Expand local institutional and financial capacities to support business and social
enterprise growth


  60%

  50%

  40%                                                           % in Compliance With CRG
                                                                Requirements
  30%
                                                                Target
  20%

  10%

   0%
               FY04            FY05              FY06



             Percent of Active Investments in Compliance With CRG Requirements



  $700,000
  $600,000
  $500,000
  $400,000
                                                            CRG/RIC contributions received
  $300,000
  $200,000
  $100,000
        $0
                 FY04           FY05          FY06



         Community Reinvestment Contributions Received From Active Investments




                                                 21
  40%
  35%
  30%
  25%                                                          Strategic partnership funding
                                                               percent
  20%
                                                               Target
  15%
  10%
   5%
   0%
          FY04       FY05      FY06


Strategic Funding Partnership Contributions as a Percentage of New Investment Obligations


ADF exceeded its internal targets for four of the nine PART indicators with established targets this
reporting year. ADF also made much better than expected progress in increasing its disbursement
efficiency, helping grantees achieve revenue growth, and website usage. The investment multiplier
indicator was above the target, reflecting the improvement that has taken place in the composition
and performance of the portfolio.

The cumulative revenue growth in the active and recently completed investments was $44.65
million in FY 2006, an increase of more than 59% over FY 2005. ADF exceeded its FY 2006
target for this indicator by approximately 172 percent. The bulk of the improvement was due to
four extraordinarily successful investments (two active and two recently completed) -- Uganda
Marine Products, Tanzania Mtibwa Sugar, Tanzania Ruembe Sugar, and Tanzania Kilombero
Sugar.

The Investment Multiplier indicator takes into account the cumulative revenue growth and the
cumulative disbursements by ADF in the active and recently completed micro and small enterprises
(MSE) and trade and investment (T&I) programs. This is a very important indicator because it
allows a comparison of the total benefits and costs. For every $1.00 that ADF has disbursed to
these investments, $2.33 in increased income has been generated so far.

Over the active and recently completed portfolio as a whole, the Investment Multiplier may rise or
fall across years as old investments are dropped from the population and new ones are added. The
Investment Multiplier for ADF’s portfolio increased by 36% in FY 2006 and exceeded ADF’s
target by more than 14 percent. The Investment Multiplier was substantially higher for the active
and recently completed T&I investments (over 3.00) than for the MSE investments (1.09). The
T&I projects typically involve larger, more well-established businesses than MSEs and are often
part of the formal sector.

Since cumulative disbursements typically are largely finished by the third year of ADF
involvement while cumulative revenue growth continues to expand, the Investment Multiplier for a
particular investment generally rises in the last two years of active ADF investment and the three
years following completion of the investment period. As a result, it is not surprising that the
Investment Multiplier was 5.10 for the recently completed MSE and T&I investments, but only


                                                 22
0.57 for the investments still under implementation.

The PART indicator for profitability is the proportion of business investments that have become
profitable by the end of their third year of ADF support, and this was 44% in FY 2006. The
profitability indicator showed improvement over the prior year, increasing by 6.3 percentage
points, but was below the FY 2006 target of 70 percent.

While exchange rate changes may explain part of the decrease in the total net income gains of the
portfolio in US dollars in FY 2006, it does not explain the decrease in the percentage of projects
that were profitable in local currency terms. In FY 2006, petroleum prices rose sharply and
increased many capital and operating costs across the board. Other changes in world commodity
prices and domestic product prices at the micro level would need to be analyzed to explain the drop
in the percentage of profitable projects.

There were some serious country-specific macroeconomic problems, such as Guinea and
Zimbabwe. Differences in the weather across years (including droughts and floods) affect the
profitability of many ADF-supported enterprises, directly because of their effects on enterprises
that produce or process agricultural products and indirectly by reducing rural incomes.

ADF set 5-year profitability targets before the FY 2005 data were available to provide a basis for
the decision for this new indicator. ADF’s target of 70 percent for the profitability indicator may
be too ambitious for small businesses in Africa because only 44 percent of new employer
establishments in the US survive at least four years.

The CRG Compliance Rate is the percent of active investments with a CRG commitment that are
current on their contribution schedule by the end of their third year. Only 38.5 percent of the
businesses with a CRG were in full compliance in FY 2006, while the target was 50 percent.
Although this appears to represent an improvement over FY 2005, the higher compliance rate is
due to a revaluation process that stretched out or reduced the expected contributions from
businesses that had not achieved their targets for sales and profits.

The reasons for weak CRG compliance include client confusion as to whether this was voluntary
since ADF had signed a grant agreement with them and grants are usually “free money,” the failure
to secure written pledge agreements in most countries (other than Uganda), financial problems or
delays in the client businesses, and slow ADF progress in establishing the in-country development
trusts to recycle the funds. ADF is developing a new policy that will replace the CRG for
businesses with an enforceable instrument, improve implementation and monitoring of compliance,
and use commercial banks to administer the trust funds.

The Sustainability indicator is concerned with the percent of businesses or organizations supported
by ADF that are still operating after completion of the period of support, even if they have changed
their products or services. At least 69 percent of the former clients have demonstrated
sustainability for up to three years past the period of ADF support in FY 2006. ADF has not yet set
any targets for this new indicator for lack of information. With two years of information, ADF
may now in a position to set sustainability targets for the following three years.




                                                 23
To avoid overstating sustainability, former clients are assumed to be out of operation if no data
were available on their operating status. Information on sustainability was very incomplete -- four
out of thirteen countries did not collect any sustainability information in FY 2006 and this
represented 30 former clients, 22 percent of the portfolio of recently completed investments. There
was also missing data on some former clients in the countries that provided some sustainability
data.

The Strategic Partnership Funding indicator is the amount of contributions ADF actually received
from strategic funding partnerships during the reporting year as a percent of ADF obligations for
new development investments and amendments. In FY 2006, fully 32 percent of these obligations
came from non-USG sources. Although this was a small improvement over the prior year (1
percentage point), it was below the target of 35 percent. Since ADF calculates this indicator based
on partnership contributions received, rather than pledged, the timing of the actual payment affects
the percentage. In FY 2006, actual collections were slow and a large contribution from one major
funding partnership did not arrive in time for FY 2006 obligations.

Follow-on Financing refers to the cumulative value of grants, loans, or equity investments from
sources other than ADF that have been received by clients since the Foundation’s investment was
made. The known amount of follow-on financing exceeded $29.61 million in FY 2006, which
appears to be an increase of 212 percent over the prior year. However, the data for both years are
very incomplete (particularly for former clients) and understate the true amounts. The apparent
increase between the two years is largely due to greater data completeness in the latest year. There
are no targets for this indicator since ADF did not measure it prior to FY 2005.

The Enterprise Trust Fund indicator refers to amounts raised from agreements for joint programs
between ADF and another investor that do not flow through ADF’s books like strategic funding
partnership contributions. Instead, this money goes directly to a separate trust fund. These
enterprise trust funds do not refer to the CRG Trust Funds. This indicator excludes amounts
leveraged during the year that are not actually deposited until subsequent years. ADF did not have
enterprise trust fund agreements in operation in FY 2005 or FY 2006, and there was no target for
either year.

The Overhead Rate indicator is ADF’s non-program costs as a percentage of the total USG
appropriations and non-USG funding contributions received during the year. The overhead rate
was 32 percent in FY 2006, compared to 31 percent rate for FY 2005. ADF’s target for both years
was 25 percent.

The increase in the overhead rate primarily resulted from an increase in administrative costs for
field operations from $1.4 million in FY 2005 to $2.6 million in FY 2006 as a result of the start up
of the Africa Regional Office in Accra, Ghana and filling of vacant Country Representative
positions. Administrative costs at ADF/Washington also increased as a result of staffing vacancies
and needed purchases of computer equipment.




                                                 24
The Disbursement Efficiency indicator is the median time between receipt of a properly completed,
valid disbursement request by the Country Representative and ADF transmittal of funds for the
disbursement (not the arrival of funds in the client’s bank account). The median disbursement time
improved from 25 days in FY 2005 to 7 days in FY 2006, which was better than the year’s target of
30 days.

Two other PART indicators address ADF’s communications with the broader development
assistance community and other stakeholders – External Newsletter Subscribers and Website
Usage. The number of subscribers on ADF’s mailing list for the external newsletter increased 48
percent over the prior year and was 21 percent above the target for FY 2006. However, due to the
vacancy in the Communications Manager position, ADF did not issue any external newsletters in
FY 2006. ADF did institute an internal newsletter for Partner Organizations, Country
Representatives, and headquarters staff.

The average number of monthly hits on ADF’s website declined 87 percent in FY 2006. The main
reason for this was the lack of external newsletters emailed to the subscribers list during the year.
In addition, ADF switched to different software for measuring website hits, AWSTATS. The new
software may be using a different definition or measurement method than the previous package,
WS_FTP Pro.




                                                 25
November 9, 2007



                          AFRICAN DEVELOPMENT FOUNDATION

                              MANAGEMENT ASSURANCES 


Federal Managers Financial Integrity Act (FMFIA) Assurance Statement

ADF’s internal control structure is effective in supporting effective and efficient programmatic
operations, reliable financial reporting, and compliance with all laws and regulations to which ADF
is subject. ADF has no Section 2 material weaknesses to report.

ADF’s financial management systems conform to financial system requirements. ADF has no
Section 4 instances of nonconformance to report.

ADF has internal control systems in place that are effective over financial reporting.

Federal Financial Management Improvement Act (FFMIA) Assurance Statement

ADF is in compliance with Federal financial management systems requirements, standards
promulgated by the Federal Accounting Standards Advisory Board (FASAB), and the U.S. Standard
General Ledger (USSGL) at the transaction level.

Signed:

/s/
Lloyd O. Pierson
President




                                                  26
                                  LEONARD G. BIRNBAUM         AND    COMPANY, LLP
                                           CERTIFIED PUBLIC ACCOUNTANTS
                                                  WASHINGTON OFFICE
                                                 6285 FRANCONIA ROAD
                                              ALEXANDRIA, VA 22310-2510

                                                   703-922-7622
                                                 FAX: 703-922-8256
LESLIE A. LEIPER                                                                                    WASHINGTON, DC
LEONARD G. BIRNBAUM                                                                             SUMMIT, NEW JERSEY
DAVID SAKOFS                                                                              REDWOOD CITY, CALIFORNIA
CAROL A. SCHNEIDER
DORA M. CLARKE




        November 9, 2007




                                  AFRICAN DEVELOPMENT FOUNDATION 

                                        MESSAGE FROM THE CFO 


        I am pleased to present the FY 2007 comparative Financial Statements for the African
        Development Foundation. These statements, prepared in accordance with generally accepted
        accounting principles in the U.S.

        As in previous years, ADF has no material weaknesses or instances of noncompliance to report.
        The agency is in full compliance with the Federal Managers Financial Integrity Act, the Federal
        Financial Management Improvement Act, and all other laws and regulations to which the agency
        subject.


        Signed:



        /s/
        Martha C. Edmondson
        Chief Financial Officer




                                                         27
                                 LEONARD G. BIRNBAUM               AND    COMPANY, LLP
                                              CERTIFIED PUBLIC ACCOUNTANTS
                                                      WASHINGTON OFFICE
                                                     6285 FRANCONIA ROAD
                                                  ALEXANDRIA, VA 22310-2510

                                                         703-922-7622
                                                      FAX: 703-922-8256
LESLIE A. LEIPER                                                                                             WASHINGTON, DC
LEONARD G. BIRNBAUM                                                                                      SUMMIT, NEW JERSEY
DAVID SAKOFS                                                                                       REDWOOD CITY, CALIFORNIA
CAROL A. SCHNEIDER
DORA M. CLARKE




                                     INDEPENDENT AUDITOR’S REPORT

        To the Board of Directors and the President,
        African Development Foundation:

                We have audited the African Development Foundation’s (ADF) Balance Sheets, Statements
        of Net Cost, Statements of Changes in Net Position, and Statements of Budgetary Resources
        (Principal Financial Statements) as of, and for the years ended, September 30, 2007 and 2006; we
        have considered internal control over financial reporting in place as of September 30, 2007; and we
        have tested compliance with laws and regulations.

                In our opinion, ADF’s 2007 and 2006 Principal Financial Statements are presented fairly in
        all material respects.

                We found no instances of material weakness in the internal controls over financial reporting
        or instances of noncompliance with selected provisions of applicable laws and regulations involving
        ADF’s financial management system.

               Each of these conclusions is discussed in more detail below. This report also discusses the
        scope of our work.

                                    PRINCIPAL FINANCIAL STATEMENTS

                In our opinion, ADF’s 2007 and 2006 Balance Sheets, Statements of Net Cost, Statements of
        Changes in Net Position, and Statements of Budgetary Resources, including the notes thereto,
        present fairly, in all material respects, ADF’s financial position as of September 30, 2007 and 2006,
        and the net cost of operations, the changes in net position, and use of budgetary resources, for the
        years then ended, in conformity with accounting principles generally accepted in the United States of
        America.




                               MEMBERS OF THE AMERICAN INSTITUTE OF CERTIFIED PUBLIC ACCOUNTANTS
                                                              28
                                      INTERNAL CONTROL

        We considered ADF’s internal control over financial reporting in order to determine our
auditing procedures for the purpose of expressing our opinion on the Principal Financial Statements.
We limited our internal control testing to those controls necessary to achieve the objectives
described in the Office of Management and Budget’s (OMB) Bulletin 07-04, Audit Requirements for
Federal Financial Statements. We did not test all internal controls relevant to operating objectives as
broadly defined by the Federal Managers’ Financial Integrity Act of 1982, such as those controls
relevant to ensuring efficient operations. The objective of our audit was not to provide assurance on
internal control. Consequently, we do not provide an opinion on internal control.

       The objectives of internal control are to provide management with reasonable, but not
absolute, assurance that the following objectives are met:

       •   transactions are properly recorded and accounted for to permit the preparation of reliable
           financial reports and to maintain accountability over assets;

       •   funds, property, and other assets are safeguarded against loss from unauthorized
           acquisition, use, or disposition; and

       •   transactions, including those related to obligations and costs, are executed in compliance
           with laws and regulations that could have a direct and material effect on the financial
           statements and other laws and regulations that the Office of Management and Budget
           (OMB), or ADF management have identified as being significant for which compliance
           can be objectively measured and evaluated.

       •   data that support reported performance measures are properly recorded and accounted for
           to permit preparation of reliable and complete performance information.

        Our consideration of internal control would not necessarily disclose all matters of internal
control over financial reporting that might be significant deficiencies. Under standards issued by the
American Institute of Certified Public Accountants, a significant deficiency is a control deficiency,
or a combination of control deficiencies, that adversely affects the entity’s ability to initiate,
authorize, record, process, or report financial data reliably in accordance with generally accepted
accounting principles such that there is more than a remote likelihood that a misstatement of the
entity’s financial statements that is more than inconsequential will not be prevented or detected. A
material weakness is a significant deficiency, or combination of significant deficiencies, that result
in a more than remote likelihood that a material misstatement of the financial statements will not be
prevented or detected. Because of inherent limitations in internal controls, misstatements, losses,
errors or irregularities may nevertheless occur and not be detected. However, we noted no matters
involving the internal control and its operations that we considered to be material weaknesses as
defined above.




                                                  29
        Finally, with respect to internal control related to performance measures reported in
Management’s Discussion and Analysis, we obtained an understanding of the design of significant
controls relating to the existence and completeness assertions and determined whether those controls
had been placed in operation as required by OMB Bulletin 07-04. Our procedures were not designed
to provide assurance on internal control over reported performance measures, and, accordingly, we
do not provide an opinion on such controls.


                     COMPLIANCE WITH LAWS AND REGULATIONS

        ADF’s management is responsible for complying with laws and regulations applicable to
ADF. As part of obtaining reasonable assurance about whether the financial statements are free of
material misstatement, we performed tests of ADF’s compliance with certain provisions of laws and
regulations, noncompliance with which could have a direct and material effect on the determination
of financial statements amounts, and certain other laws and regulations specified in OMB Bulletin
07-04, including the requirements referred to in FFMIA. We limited our tests of compliance to these
provisions, and we did not test compliance with all laws and regulations applicable to ADF. The
objective of our audit of the Principal Financial Statements, including our tests of compliance with
selected provisions of applicable laws and regulations, was not to provide an opinion on overall
compliance with such provisions. Accordingly, we do not express such an opinion.

        Material instances of noncompliance are failures to follow requirements or violations of
prohibitions in statutes and regulations, which cause us to conclude that the aggregation of the
misstatements resulting from those failures or violations is material to the financial statements or
that sensitivity warrants disclosure thereof.

        The results of our tests of compliance with the laws and regulations described in the
preceding paragraph, exclusive of FFMIA, disclosed no instances of noncompliance with laws and
regulations that are required to be reported under Government Auditing Standards and OMB-
Bulletin 07-04.

         Under FFMIA, we are required to report whether the ADF’s financial management systems
substantially comply with the federal financial management system requirements, applicable
accounting standards, and the United States Government Standard General Ledger at the transaction
level. To meet this requirement, we performed tests of compliance with FFMIA section 803(a)
requirements. The results of our tests disclosed no instances where the ADF’s financial management
systems did not substantially comply with the Federal financial management system requirements,
applicable Federal accounting standards, or the United States Government Standard General Ledger
at the transaction level.




                                                 30
                         RESPONSIBILITIES AND METHODOLOGY

ADF management has the responsibility for:

       •   preparing the Principal Financial Statements and other accompanying information in
           conformity with accounting principles generally accepted in the United States of
           America;

       •   establishing and maintaining effective internal control; and

       •   complying with applicable laws and regulations.

        Our responsibility is to express an opinion on these Principal Financial Statements based on
our audit. Auditing standards generally accepted in the United States of America require that we
plan and perform the audit to obtain reasonable assurance about whether the Principal Financial
Statements are free of material misrepresentation and presented fairly in accordance with accounting
principles generally accepted in the United States of America. We considered ADF’s internal
control for the purpose of expressing our opinion on the Principal Financial Statements referred to
above and not to provide an opinion on internal control. We are also responsible for testing
compliance with selected provisions of applicable laws and regulations that may materially affect the
financial statements.

       In order to fulfill these responsibilities, we

          examined, on a test basis, evidence supporting the amounts and disclosures in the
           Principal Financial Statements;

          assessed the accounting principles used and significant estimates made by management;

          evaluated the overall presentation of the Principal Financial Statements;

          obtained an understanding of the internal controls over financial reporting by obtaining
           an understanding of the agency’s internal control, determined whether internal controls
           had been placed in operation, assessed control risk, and performed tests of controls;

          obtained an understanding of the internal controls relevant to performance measures
           included in Management’s Discussion and Analysis, including obtaining an
           understanding of the design of internal controls relating to the existence and
           completeness assertions and determined whether they had been placed in operations;




                                                  31
           obtained an understanding of the process by which the agency identifies and evaluates
            weaknesses required to be reported under FMFIA and related agency implementing
            procedures;

           tested compliance with selected provisions of laws and regulations that may have a direct
            and material affect on financial statements;

           obtained written representations from management; and

           performed other procedures, as we considered necessary in the circumstances.

        Our audits were conducted in accordance with auditing standards generally accepted in the
United States of America, the standards applicable to financial audits contained in Government
Auditing Standards and OMB Bulletin 07-04. We believe that our audits provide a reasonable basis
for our opinion.

        The Management’s Discussion and Analysis is not a required part of the Principal Financial
Statements, but are supplementary information required by OMB Circular A-136, Financial
Reporting Requirements, and the Federal Accounting Standards Advisory Board. We have applied
certain limited procedures, which consisted principally of inquiries of management regarding the
methods of measurement and presentation of the supplementary information. However, we did not
audit he information and express no opinion on it.

         This report is intended for the information of the Inspector General of U.S. Agency for
International Development and management of the African Development Foundation. This
restriction is not intended to limit the distribution of this report, which is a matter of public record.


                                                                /s/

                                                Leonard G. Birnbaum and Company, LLP

Alexandria, Virginia
November 7, 2007




                                                   32
                                      African Development Foundation
                                            BALANCE SHEETS
                                     As of September 30, 2007 and 2006

                                                                                        FY 2007         FY2006
ASSETS

    Intragovernmental:
         Fund balance with treasury (Note 3)                                        $24,842,615     $25,498,947
    Total intragovernmental                                                          24,842,615      25,498,947

    Cash and other monetary assets (Note 3)                                             6,405,219       4,416,145
    Accounts receivable                                                                       268               -
    General property, plant and equipment – Net (Note 6)                                  610,076         769,066
    Advances and prepayments (Note 5)                                                   1,649,341       3,774,857

TOTAL ASSETS                                                                        $33,507,519     $34,459,015


LIABILITIES

    Accounts payable (Note 7)                                                       $    489,475    $    502,311
    Accrued payroll (Note 7)                                                             145,658         122,460
    Accrued leave    (Note 7)                                                            256,646         211,182

TOTAL LIABILITIES                                                                   $    891,779    $    835,953

NET POSITION
   Unexpended Appropriations                                                         24,359,219      27,055,611
   Cumulative Results of Operations                                                   8,256,521       6,567,451
   TOTAL NET POSITION                                                                32,615,740     $33,623,062

TOTAL LIABILITIES AND NET POSITION                                                  $33,507,519     $34,459,015




                             The accompanying notes are an integral part of these statements.
                                                           33
                                   African Development Foundation
                                   STATEMENTS OF NET COST
                          For the Years Ended September 30, 2007 and 2006


                                                                                    FY 2007      FY 2006
PROGRAM COSTS

   Program expenses                                                               $16,349,502   $12,930,948

   Operating expenses – Public                                                     10,854,772     9,018,800

   Operating expenses – Intragovernmental                                             255,118      188,159

TOTAL PROGRAM COSTS                                                                27,459,392    22,137,907

NET PROGRAM COSTS                                                                  27,459,392    22,137,907

NET COST OF OPERATIONS                                                            $27,459,392   $22,137,907




                           The accompanying notes are an integral part of these statements.
                                                         34
                                    African Development Foundation 

                          STATEMENTS OF CHANGES IN NET POSITION 

                           For the Years Ended September 30, 2007 and 2006 



                                                         FY 2007                                     FY 2006
                                          Cumulative Results   Unexpended             Cumulative Results   Unexpended
                                            of Operations     Appropriations            of Operations    Appropriations

Beginning Balances                                 $ 6,567,451        $ 27,055,611               $4,297,787     $27,204,690

Budgetary Financing Sources

   Appropriations Received                                             22,799,629                                23,000,000
   Rescission & Cancelled Resources                                      (282,226)                               (1,330,702)
   Appropriations Used                             25,213,795         (25,213,795)                21,818,377    (21,818,377)
   Nonexchange Revenue                              3,717,351                                      2,401,035
Other Financial Services
   Imputed Financing                                   217,316                                      188,159

Total Financing Sources                            29,148,462          (2,696,392)               24,407,571        (149,079)

Net Cost of Operations                            (27,459,392)                                   (22,137,907)

Net Change                                           1,689,070         (2,696,392)                 2,269,664      (149,079)

Ending Balances                                    $ 8,256,521        $ 24,359,219               $ 6,567,451    $27,055,611




                              The accompanying notes are an integral part of these statements.
                                                            35
                                African Development Foundation
                   COMBINED STATEMENTS OF BUDGETARY RESOURCES
                       For the Years Ended September 30, 2007 and 2006
                                                                                        FY 2007        FY2006

BUDGETARY RESOURCES

   Unobligated Balance – Beginning of Period                                          $ 6,257,243    $ 5,800,270

   Recoveries of Prior Years Obligations                                                1,282,953       214,367

   Budget Authority
     Appropriation                                                                     27,043,780    25,401,035

   Nonexpenditure transfers, net, anticipated and actual                                    88,681              -

   Permanently not available                                                             (282,226)    (1,330,702)

TOTAL BUDGETARY RESOURCES                                                             $34,390,431    $30,084,970

STATUS OF BUDGETARY RESOURCES

   Obligations Incurred – Direct                                                       29,884,641    23,441,998

   Unobligated balances (Note 4)
     Apportioned                                                                          765,950      4,055,422
     Exempt from apportionment                                                          1,261,310         49,268

   Unobligated balances – unavailable (Note 4)                                          2,478,530      2,538,282

TOTAL STATUS OF BUDGETARY RESOURCES                                                   $34,390,431    $30,084,970

CHANGE IN OBLIGATED BALANCE

   Obligated Balance, Net – as of October 1
     Unpaid Obligations, brought forward                                               23,525,888    22,004,418

   Obligations Incurred                                                                29,884,641    23,441,998

   Gross Outlays                                                                      (25,385,533)   (21,959,928)

   Recoveries of prior year unpaid obligations, actual                                 (1,282,953)      (214,367)

   Obligated Balance, Net - End of Period
     Unpaid Obligations (Note 4)                                                       26,742,043    23,272,120

NET OUTLAYS
   Gross Outlays                                                                       25,385,533    21,959,928
   Net outlays                                                                         25,385,533    21,959,928




                               The accompanying notes are an integral part of these statements.
                                                             36
                                       African Development Foundation 

                                       Notes to the Financial Statements 

                                           As of September 30, 2007 



Note 1. Organization

    The African Development Foundation (“ADF” or “the Foundation”) is a government-owned corporation
    established by Congress under the African Development Foundation Act in 1980 and began operations in 1984.
    The Foundation is the principal agency of the U.S. Government that supports community-based, self-help
    initiatives that alleviate poverty and promote sustainable economic and social development in Africa at the
    grassroots level. The Foundation’s headquarters are in Washington, D.C. ADF maintains partnerships with
    local organizations, staffed with African professionals, in each of the countries in which it operates. Over the
    past 23 years, the Foundation has funded more than 1600 projects in 34 African countries.


Note 2. Significant Accounting Policies

    A. Basis of Presentation

    The accompanying financial statements have been prepared on the accrual basis to report the financial position
    and results of operation in accordance with the concepts and standards contained in the Statements of Federal
    Financial Accounting Standards, as required by the Chief Financial Officers Act of 1990. These statements
    have been prepared from the books and records of the Foundation in accordance with the form and content for
    federal financial statements specified in the Office of Management and Budget (OMB) in OMB Circular No A
    136, Financial Reporting Requirements, as amended, and the Foundation’s accounting policies, which are
    summarized in this note.

    B. Basis of Accounting

    Transactions are recorded on an accrual basis. Grants are recorded when obligated and expenses are recognized
    when the funds are expended, without regard to receipt or payment of cash. The preparation of the financial
    statements in conformity with generally accepted accounting principles requires management to make estimates
    and assumptions that affect the reported amounts of assets and liabilities, disclosure of contingent assets and
    liabilities at the date of the financial statements, and the reported amounts of grants and expenses during the
    reporting period. Actual results will invariably differ from those estimates.

    C. Fund Balances with Treasury and Cash

    The Foundation maintains the majority of its funds in the U.S. Treasury. These are amounts for which the
    Foundation is authorized to make expenditures and pay liabilities. In addition, commercial, noninterest bearing
    accounts (in local currencies) are maintained with Barclays Bank of Botswana, Citibank Nigeria, and Banco
    Comercial do Atlantico in Cape Verde, Standard Chartered Bank in Ghana, Ecobank in Mali, Citibank and
    Zenith Bank in Nigeria, First National Bank of Swaziland in Swaziland, Standard Chartered Bank in Zambia,
    EcoBank Guinea, EcoBank Benin and Standard Chartered Uganda to process grant funds for those countries.
    Governments with whom ADF has entered Strategic Partnerships deposit donations into these accounts. In
    general, grants are funds equally with appropriated funds and donated funds. ADF controls all disbursements
    from these accounts.




                                                        37
D. Foreign Currencies

The Foundation awards grants to private organizations in Africa. Most of the grants are denominated in local
currencies to facilitate accounting by the recipient organizations. Depending on the nature of the transaction,
foreign currencies are translated into dollars at the actual exchange rate received by the Foundation when the
transaction is made or at the prevailing exchange rate at the beginning of the month in which the transaction
occurred. The value of obligations incurred by the Foundation in foreign currencies varies from time to time
depending on the current exchange rate. The Foundation adjusts the value of its obligations at the end of each
quarter during the year to reflect the prevailing exchange rates.         Downward adjustments to prior year
obligations based on favorable foreign currency exchange rates will be made available for obligation if the
adjustment occurs within the Foundation’s authorized two year funding period. Upward adjustment to prior
year obligations based on unfavorable foreign currency exchange rate with the U.S. dollar will be made from
funds made available for upward adjustments, if any, or from currently available funds.

E. Grant Accounting

The Foundation disburses funds in advance to grantees to cover their projected expenses over a three-month
period. Grantees report to the Foundation periodically on the actual utilization of these funds. For purposes of
these financial statements, the Foundation treats disbursements to grantees as advances. The advance is reduced
when the grantee reports expenditures. The total grant advance is the total amount disbursed to the grantee less
the total expended for open (nonexpired) grants as of the reporting date. In order to ensure timeliness in
reporting grantee expenditures, the Foundation will use estimates to complete to calculate the last quarter’s
grantee expenditures based on historical expenditure trends since 1996 and disbursement activity funding that
quarter’s activity. The actual expenditures adjustments will be reported in the following quarter’s financial
statements. Once a grant has closed (expired or cancelled) any excess disbursement is reclassified as an
Accounts Receivable.

F. Travel Advances

Advances are given to ADF employees for official travel. Travel advances are recorded as expenses upon
receipt of employee travel vouchers.

G. Property, Plant and Equipment, Net

The space in which the Foundation operates is leased by the Foundation through a multi–year lease. Equipment
is depreciated using the straight–line method over useful lives, which is estimated at five years. Equipment with
an acquisition cost of less than $5,000 or less than two years of life is expensed when purchased.

H. Accounts Payable

Accounts payable represent amounts owed to nonfederal entities, primarily commercial vendors, for goods and
services received by ADF.

I.   Contingencies

The Foundation is a party in various administrative legal actions and claims brought by or against it. According
to the Foundation’s legal counsel, the likelihood of unfavorable outcomes for all these legal actions and claims
is remote. In the opinion of the Foundation’s management, the ultimate resolution of these proceedings, actions,
and claims will not materially affect the financial position or results of operations of the Foundation.

J.   Annual, Sick, and Other Leave

Annual, sick and other leave is accrued as it is earned and the accrual is reduced as leave is taken. Each year,
the Foundation calculates the value of the accrued annual leave at the end of the year based on current pay rates.
Funding for payment of accrued annual leave at the end of the year will be taken from future financing sources.



                                                     38
   Sick leave and other types of nonvested leave are expensed as taken.

   K. Retirement Plan

   The Foundation’s employees participate in the Civil Service Retirement System (CSRS) or the Federal
   Employees Retirement System (FERS). The Foundation makes statutory contributions to the Office of
   Personnel Management for employees enrolled in each plan. The Foundation does not report accumulated
   assets, plan benefits or unfunded liabilities, if any, attributable to its employees. The Office of Personnel
   Management reports such amounts.

   L. Trust Fund

   The Foundation maintains a Trust Fund with the U.S. Treasury in accordance with its gift authority.


Note 3. Fund Balances and Funds Held Outside Treasury

   ADF’s Fund Balance with Treasury as of September 30, 2007 and 2006 are summarized below:
                                                                          FY 2007                    FY 2006

                         Appropriated Funds                                $ 24,806,561         $    25,467,393

                         Trust Fund                                                36,054                  31,554

                         Total Fund Balance with Treasury                 $   24,842,615        $    25,498,947

   ADF’s funds held outside the Treasury consist of local currency donations made by African governments and
   certain private sector entities for program purposes in each respective country. September comparative balances
   are summarized below:
                                                                                 FY 2007             FY 2006


                         EcoBank Mali                                           1,407,401                  987,496
                         Barclays Bank of Botswana                              1,143,987                1,104,267
                         Standard Chartered Ghana                               1,015,383                1,100,275
                         EcoBank Guinea                                           625,571                        -
                         EcoBank Benin                                            560,803
                         Cape Verde                                               539,366                 312,436
                         EcoBank Senegal                                          345,592                 402,017
                         Zenith Bank Nigeria                                      323,481                 226,984
                         Standard Chartered Uganda                                178,387                       -
                         First National Bank Swaziland                            171,552                 281,088
                         Standard Chartered Zambia                                 60,938                 (37,431)
                         Citibank Nigeria                                          32,758                  39,013

                         Total Funds Held Outside Treasury                $     6,405,219       $        4,416,145




                                                       39
Note 4. Status of Fund Balance With and Outside Treasury
                                                                                   FY 2007                FY 2006

                           Unobligated Balance

                                    Available                                  $     2,027,260              4,104,690
                                    Unavailable                                      2,478,531              2,538,282

                           Obligated balance not yet disbursed                 $    26,742,043        $    23,272,120

                           Total                                               $ 31,247,834           $   29,915,092


Note 5. Advances

    ADF’s advances as of September 30, 2007 and 2006 are summarized below:

                                                                                   FY 2007                 FY2006

                           Grants                                             $      1,649,341        $     3,319,149
                           Travel                                                            -                230,821
                           Prepayments                                                                        224,887

                           Total                                              $      1,649,341        $     3,774,857

Note 6. Property, Plant and Equipment, Net

    Equipment is capitalized at cost if the initial unit acquisition cost is $5,000 or more and service life is two years
    or more. Equipment with an acquisition cost of less than $5,000 or less than two years of life is expensed when
    purchased.

         ADF’s property, plant and equipment as of September 30, 2007 and 2006

                                                                                   FY 2007                FY 2006

                  Equipment, at cost                                          $      1,109,246        $     1,818,078
                  Accumulated Depreciation                                            (499,170)            (1,049,012)
                  Equipment, net                                              $        610,076        $       769,066


Note 7. Accounts Payable and Other Liabilities

    Accounts payable represent amounts owed to nonfederal entities, primarily commercial vendors for goods and
    services received by ADF, and accrued employee payroll and annual leave.

                                                                                    FY 2007               FY 2006

                           Commercial vendors                                 $       489,475         $       502,311
                           Accrued employee payroll and leave                         402,304                 333,642


                           Total                                              $       891,779         $       835,953




                                                          40
Note 8. Leases
   The space in which the Foundation Headquarters operates is leased by the Foundation through a multi-year
   lease until April 30, 2008. The total amount of funding commitment is detailed in Table 1.
   ADF also enters into year-to-year leases in the countries with established Resident Representative Offices.


                                            TABLE 1 – ADF Headquarters’ 

                                       Space Lease – Total Future Payment Due



                              Fiscal Year                       Dates                          Amount
                              Year 1          October 1, 2007 – April 30, 2008                   $232,874


                                TOTAL                                                            $232,874



Note 9. Explanation of Differences Between the Statement of Budgetary Resources and the Budget of the
        United States Government.

   The 2008 Budget of the United States Government, with the Actual Column completed for fiscal year 2007, has
   not yet been published as of the date of these financial statements. The Budget is currently expected to be
   published and delivered to the Congress in February 2007. The 2007 Budget of the United States Government,
   with the Actual Column completed for fiscal year 2006, has been reconciled.




                                                        41
Note 10. Reconciliation of Net Cost of Operations to Budget


                                      African Development Foundation 

                       RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET 

                             For the Years Ended September 30, 2007 and 2006



                                                                          FY 2007        FY2006

RESOURCES USED TO FINANCE ACTIVITIES

Obligations Incurred                                                    $ 29,884,641   $23,441,998

   Less: Spending Authority from Offsetting Collections & Adjustments    (1,282,953)     (214,367)
   Net Obligations                                                       28,601,688    23,227,631

   Financing Imputed for Cost Subsidies                                    217,316        188,159

Change in Budgetary resources not yet provided                               (7,535)

Net Other Resources Used to Finance Activities                             209,781        188,159

Total Resources Used to Finance Activities                               28,811,469    23,415,790

RESOURCES USED TO FINANCE ITEMS NOT PART
  OF THE NET COST OF OPERATIONS 


   Change in budgetary resources not yet provided (Increase) 
           (1,328,933)      (964,011)
   Resources that finance the acquisition of assets 
                      (193,203)      (524,556)
   Total resources that do not fund net costs                            (1,522,136)    (1,488,567)

Total Resources Used to Finance Net Cost of Operations                   27,289,333    21,927,223

Costs that will not Require Resources in this Period:
  Increase (decrease) in Accrued Annual Leave Liability
                     45,465        18,024
  Total Costs that will Not Require Resources in this Period
                45,465        18,024

Components not Requiring Resources
     Loss/Gains on the Disposal of Assets                                     2,809
     Depreciation                                                           234,767       192,660
     Others                                                                (112,982)
     Total costs that do not require resources                              124,594       192,660

NET COST OF OPERATIONS                                                  $ 27,459,392   $22,137,907




                                                         42
                                                                                  Appendix I


Management
Comments




November 7, 2007

Mr. Donald Gambatesa
Inspector General
Office of the Inspector General
United States Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523-8100

Re: Audit Report of the 2007 Financial Statements

Dear Mr. Gambatesa:

We have received the audit report supplied by Leonard G. Birnbaum and Company,
including the opinion on the African Development Foundation’s (ADF) fiscal years 2007
and 2006 comparative financial statements, internal controls status, and compliance with
applicable laws and regulations. We are pleased to note that all four comparative
financial statements (the Principal Financial Statements) have continued to receive
unqualified opinions. Thank you and your team, as well as Birnbaum and Company, for
working closely with us during the audit process.

We at the African Development Foundation recognize the importance of accountability
and public disclosure, and our goal is to have excellent financial management systems.
We are committed not only to maintaining the quality of our financial management
systems but also to find ways to improve the efficiency and cost effectiveness of our
systems. We look forward to working with your staff on the FY 2008 audit. Any
questions may be addressed to Martha C. Edmondson, Chief Financial Officer, at ADF or
to me.

Sincerely,

/s/

Lloyd O. Pierson
President




                                           43
